y/-»

No.

In tfyt
Supreme Court of tfir ®mtt& states
JESUS ADAM L1ZARRAGA,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for A Writ of Certiorari to the United
States Court ofAppeals for the Eighth Circuit
CERTIFICATE OF SERVICE
I, Jesus Adam Lizarraga, Petitioner pro se, hereby
certify that on this ^_day of bCfbfafcfi, 2020, as
required by Supreme Court Rule 29, I have served a
true copy of the enclosed Motion for Leave to Proceed
In Forma Pauperis and Petition for Writ of Certiorari,
on each party to the above styled proceeding or that
party’s counsel by depositing same in the United
States mail with postage prepaid and affixed thereon,

O'*
■#

■

to: The Solicitor General of the United States of
America, Department of Justice, 950 Pennsylvania
Ave., N. W., Room 5614, Washington, D.C. 20530 and
counsel for Respondent, United States of America,
Office of the United States Attorney for the Northern
District of Iowa, 111 7th Avenue, SE, Box #1, Cedar
Rapids, Iowa 52401-1825

<tEsi;s Adam Lizarraga
Pro Se Petitioner
Fed. Reg. No. 14056-029
FCI Loretto
P.O. Box 1000
Cresson, PA 16630

